March 2007
Report No. EVAL-07-001


Evaluation of the FDIC’s Succession
Planning Efforts




             eral
                                                                                                        Report No. EVAL 07-001
                                                                                                                    March 2007


                                        Evaluation of the FDIC’s Succession Planning Efforts
                                        Results of Evaluation

                                        We evaluated whether the FDIC’s succession planning initiatives were consistent with the
Background and                          seven key principles for effective succession management identified by GAO, the Office of
Purpose of Evaluation                   Personnel Management, the Corporate Leadership Council, and the National Academy of
                                        Public Administration and found that the FDIC has recently put initiatives in place and is
                                        developing others that are consistent with the seven key principles.
Managing human capital
continues to be a challenge for all
                                                  Key Principles                                  FDIC’s Initiatives
federal agencies. The U.S.
Government Accountability
                                         Commitment and active support            •    FDIC’s Human Resources Committee meets
                                         of top leadership.                            weekly to discuss human capital issues.
Office (GAO) continues to
identify strategic human capital                                                  •    The FDIC has a Chief Human Capital Officer.
management as a government-                                                       •    FDIC’s Corporate University includes a College
wide, high-risk area because of                                                        of Leadership Development.
the lack of attention to human                                                    •    Executive Managers are responsible for the
capital management.                                                                    development of employees.
                                         A direct link between the                •    The FDIC incorporates succession planning in
Specifically, GAO has reported           organization’s mission, and its               its Corporate Performance Objectives, Strategic
that in the wake of extensive            strategic plan and outcomes.                  Plan, Annual Performance Plan, and Diversity
downsizing during the early                                                            Strategic Plan.
1990s, done largely without              Identification of the critical           •    The FDIC has developed Key Leadership
sufficient consideration of the          skills and competencies that                  Competencies for each grade band.
strategic consequences, agencies         will be needed to achieve                •    The FDIC has analyzed corporate retirement
are experiencing significant             current and future programmatic               projections.
challenges to deploying the right        goals.
skills, in the right places, at the      Development of strategies to             •    The FDIC piloted the Talent Review Program
right time. Agencies are also            address gaps in mission critical              and plans to pilot a Corporate Executive
facing a growing number of               and other key positions.                      Development Program.
employees who are eligible for                                                    •    The FDIC initiated the Honors Attorney
retirement and are finding it                                                          Program.
difficult to fill certain mission-                                                •    The FDIC has a Mentoring Program.
critical jobs, a situation that could
                                         Leadership training programs             •    The FDIC has several internal and external
significantly drain agencies’
                                         that include formal and informal              developmental programs for employees.
institutional knowledge.
                                         training for all levels of               •    The FDIC established the Corporate Employee
The Corporation has reported that        supervisors, managers, and                    Program.
over the last 3 years, it has            potential leaders.                       •    The FDIC established a Professional Learning
focused considerable resources on                                                      Account Program.
human capital planning and is in         Strategies for addressing                •    The Diversity Strategic Plan will be updated in
the process of developing and            specific human capital                        2007.
implementing several key                 challenges, such as diversity,           •    The FDIC can offer retention bonuses.
structural components of its             leadership capacity, and                 •    The FDIC requires a Continued Service
human capital strategy for the           retention.                                    Agreement for employees participating in
future, including identification of                                                    external development programs.
succession planning and                  A process for evaluating the             •    The FDIC evaluates human capital efforts
management strategies.                   costs and benefits of succession              through the Human Resources Committee,
                                         planning efforts and the return               Corporate Performance Objectives, Corporate
The evaluation objective was to
                                         on investment it provides for the             University 360-degree assessments, supervisor
determine the extent to which the
                                         organization.                                 appraisals, and employee surveys.
FDIC’s succession planning
efforts identify and address future
critical staffing and leadership        Recommendations
needs.
                                        Many of the FDIC’s succession planning initiatives for ensuring the continuity of leadership
                                        positions were new or in the process of being developed. Therefore, we limited the results of
                                        this review to describing and providing the status of the FDIC’s current and planned initiatives.
To view the full report, go to          We are not making recommendations but note in the report that the initiatives should be
www.fdicig.gov/2007reports.asp          assessed at a later date to determine their effectiveness in achieving the desired outcomes.
                                 TABLE OF CONTENTS


RESULTS IN BRIEF                                                                         2

BACKGROUND                                                                               3

EVALUATION RESULTS                                                                       4

      Principle 1: Commitment and active support of top leadership                       4

      Principle 2: A direct link between the organization’s mission and its strategic    5
      plan and outcomes

      Principle 3: Identification of the critical skills and competencies that will be   6
      needed to achieve current and future programmatic results

      Principle 4: Development of strategies to address gaps in mission critical and     9
      other key positions

      Principle 5: Leadership training programs that include formal and informal         13
      training for all levels of supervisors, managers, and potential leaders

      Principle 6: Address specific human capital challenges, such as diversity,         16
      leadership capacity, and retention

      Principle 7: A process for evaluating the costs and benefits of the succession     18
      process, and the return on investment it provides for the organization

CORPORATION COMMENTS AND OIG EVALUATION                                                  20

Appendix I: OBJECTIVE, SCOPE, AND METHODOLOGY                                            21

Tables:
      Table 1:   Summary of FDIC’s Initiatives on Succession Planning                     2
      Table 2:   Overview of Talent Review                                               10
      Table 3:   Overview of Corporate Executive Development Program                     11
      Table 4:   Required Leadership and Supervisory Programs                            13
      Table 5:   External Leadership Development Programs                                14

Figures:
     Figure 1: Permanent On-Board Employees as of May 2006                                   3
     Figure 2: Leadership Competency Model                                                   7
     Figure 3: Example of Executive Manager Competency Description                           7
Federal Deposit Insurance Corporation                                                   Office of Evaluations
3501 Fairfax Drive, Arlington, VA 22226                                          Office of Inspector General




DATE:                               March 28, 2007

MEMORANDUM TO:                      Arleas Upton Kea
                                    Director, Division of Administration



FROM:                               Stephen M. Beard
                                    Assistant Inspector General for Evaluations and Management

SUBJECT:                            Evaluation of the FDIC’s Succession Planning Efforts
                                    (Report No. EVAL-07-001)

This report presents the results of our evaluation of the Federal Deposit Insurance Corporation’s
(FDIC) succession planning efforts. In light of the 12 years of continuous downsizing of the
FDIC and an aging workforce, it is important to ensure that the FDIC has a comprehensive
succession management plan for the future.

EVALUATION OBJECTIVE AND APPROACH

Our objective was to determine the extent to which the FDIC’s succession planning efforts
identify and address future critical staffing and leadership needs. To accomplish our objective,
we evaluated whether the FDIC’s initiatives addressed seven key principles for effective
succession management common to human capital guidance issued by the U.S. Government
Accountability Office (GAO), the U.S. Office of Personnel Management (OPM), the Corporate
Leadership Council (CLC), and the National Academy of Public Administration (NAPA).

Most of the initiatives presented in this report are related to ensuring the identification and
development of employees with the capacity to be effective in key leadership positions.
However, the report also presents several entry-level recruiting and development programs that
FDIC executives indicated were important to ensuring longer-term succession management.

During the evaluation, we found that many of the FDIC’s succession planning initiatives for
ensuring the continuity of leadership positions were new or in the process of being developed.
Therefore, the results of this review are limited to descriptions and status of the FDIC’s current
and planned initiatives. An assessment of how effective these initiatives are in identifying and
addressing staffing and leadership needs should be conducted at a later date.

Appendix I describes our objective, scope, and methodology in more detail.
RESULTS IN BRIEF

The FDIC has recently put initiatives in place and is developing others that are consistent with
seven key principles of an effective succession management program. Table 1 below provides a
summary of the FDIC’s initiatives on succession planning. These initiatives will serve the FDIC
well as the Corporation has the opportunity over the next decade to substantially reshape its
workforce in conjunction with the projected retirements of a large number of long-serving
employees. The downsizing that has occurred over the past 12 years has resulted in limited
hiring of new employees. This trend will change as the FDIC moves beyond downsizing and
begins to fill positions as they become vacant.

Table 1: Summary of FDIC’s Initiatives on Succession Planning
          Key Principles                                   FDIC’s Initiatives
 Commitment and active support of         •   The FDIC’s Human Resources Committee meets weekly
 top leadership.                              to discuss human capital issues.
                                          •   The FDIC has a Chief Human Capital Officer.
                                          •   The FDIC’s Corporate University includes a College of
                                              Leadership Development.
                                          •   Executive Managers are responsible for the development
                                              of employees.
 A direct link between the                •   The FDIC incorporates succession planning in its
 organization’s mission, and its              Corporate Performance Objectives, Strategic Plan,
 strategic plan and outcomes.                 Annual Performance Plan, and Diversity Strategic Plan.
 Identification of the critical skills    •   The FDIC has developed Key Leadership Competencies
 and competencies that will be                for each grade band.
 needed to achieve current and            •   The FDIC has analyzed corporate retirement projections.
 future programmatic goals.
 Development of strategies to             •   The FDIC piloted the Talent Review Program and plans
 address gaps in mission critical and         to pilot a Corporate Executive Development Program .
 other key positions.                     •   The FDIC initiated the Honors Attorney Program.
                                          •   The FDIC has a Mentoring Program.
 Leadership training programs that        •   The FDIC has several internal and external developmental
 include formal and informal                  programs for employees.
 training for all levels of               •   The FDIC established the Corporate Employee Program.
 supervisors, managers, and               •   The FDIC established a Professional Learning Account
 potential leaders.                           Program.
 Strategies for addressing specific       •   The Diversity Strategic Plan will be updated in 2007.
 human capital challenges, such as        •   The FDIC can offer retention bonuses.
 diversity, leadership capacity, and      •   The FDIC requires a Continued Service Agreement for
 retention.                                   employees participating in external development
                                              programs.
 A process for evaluating the costs       •   The FDIC evaluates human capital efforts through the
 and benefits of succession planning          Human Resources Committee, Corporate Performance
 efforts and the return on investment         Objectives, Corporate University 360-degree assessments,
 it provides for the organization.            supervisor appraisals, and employee surveys.
Source: OIG analysis of key principles.




                                                    2
BACKGROUND

Since 2001, GAO has identified strategic human capital management as a government-wide,
high-risk area because of the lack of attention to human capital management.1 Specifically, GAO
has reported that in the wake of extensive downsizing during the early 1990s, done largely
without sufficient consideration of the strategic consequences, agencies are experiencing
significant challenges to deploying the right skills, in the right places, at the right time. Agencies
are also facing a growing number of employees who are eligible for retirement and are finding it
difficult to fill certain mission-critical jobs; a situation that could significantly drain agencies’
institutional knowledge.

In 2001, the President’s Management Agenda (PMA) included the Strategic Management of
Human Capital as one of five government-wide initiatives. The PMA referenced GAO’s work in
the area and noted that by 2010, over 70 percent of the government’s employees will be eligible
for either regular or early retirement, and 40 percent are expected to retire. In December 2006,
the Office of Management and Budget (OMB) reported in its quarterly Executive Branch
Management Scorecard that agencies are making adequate progress in building strong human
capital programs. However, according to OMB’s Web site, ExpectMore.gov, more remains to be
done to help agencies build a pool of potential leaders that can adequately replace managers and
executives when they leave the organization.2

Further, the FDIC is required to follow the Federal Workforce Flexibility Act of 2004, which
requires that each agency have a comprehensive management succession program to provide
training to employees to develop agency managers. In that regard, the Corporation has reported
that over the last 3 years, it has focused
considerable resources on human capital          Figure 1: Permanent On-Board Employees as of
                                                       May 2006
planning and is in the process of developing                                Executive
and implementing several key structural                                     Managers, 90

components of its human capital strategy for                                                Corporate
                                                                                            Managers,
the future, including identification of                        Examiners,
                                                                                              485
                                                               1,634
succession planning and management
strategies.                                                                                    Professional
                                                                                               Staff, 1,591
In August 2006, the Corporation announced
that approximately 18 to 34 percent of the              Attorneys, 184
Executive Managers (EMs) and 8 to 20                                   Support Staff,
percent of the overall workforce would be                                  487
eligible to retire in the next 5 years. An FDIC
executive acknowledged that for the past
several years, the Corporation has been            Source: Division of Finance
focusing on downsizing and that 2006 was the
first year that the FDIC had focused on succession planning.

1
   GAO High-Risk Series Report Numbers: GAO-01-263, GAO-03-119, GAO-05-207, and GAO-07-310.
2
   ExpectMore.gov provides information developed by OMB and federal agencies on the performance of every
federal program.


                                                     3
EVALUATION RESULTS

The FDIC defines succession planning as an ongoing strategically-aligned process of
systematically identifying, assessing, and developing internal talent and identifying and assessing
external measures to ensure leadership continuity for all key positions in an organization. The
Corporation is in the process of implementing several initiatives to manage succession
effectively and efficiently as workload demands change in the future. Generally, we found that
the FDIC’s efforts related to succession planning were consistent with seven key principles of an
effective succession management program as defined by GAO, OPM, CLC, and NAPA.


 Principle 1: Commitment and active support of top leadership.

 Description: Top leadership actively participates in, regularly uses, and ensures
 the needed financial and staff resources for key succession planning and
 management initiatives.


GAO’s past work has shown that the single most important element of an effective succession
management program is to have top management clearly and personally involved in workforce
planning in order to provide the organizational vision that is important in times of change and
generate cooperation within the agency to ensure that planning strategies are thoroughly
implemented and sustained.

FDIC Initiatives

The FDIC has demonstrated in several ways that its top leadership is committed to succession
planning. First, in 2001, the FDIC established the Human Resources Committee (HRC),
comprised of EMs from each of the FDIC’s driver and support divisions, who meet weekly on
human capital issues. Specifically, the HRC provides strategic direction and leadership at the
corporate level and is responsible for developing policy recommendations and monitoring the
implementation of human resources initiatives.

Second, the FDIC has a Chief Human Capital Officer (CHCO) who is responsible for bringing a
strategic approach to the FDIC’s human capital initiatives and for aligning human capital
policies with organizational mission, goals, and outcomes. The CHCO chairs the HRC.

Third, in 2003, the FDIC established the Corporate University (CU) to support the Corporation’s
mission and business objectives by providing high-quality, cost-effective, and continuous
learning and development. CU consists of three colleges, each headed by an EM-level Dean.
The College of Leadership Development provides programs and resources to enhance the
leadership skills and capabilities of FDIC employees. As discussed later, FDIC EMs volunteer
to be sponsors for the various leadership development programs offered by CU.

Fourth, the FDIC held its annual Executive Leadership Conference in February 2007. A portion
of the conference agenda was devoted to discussions of succession planning and leadership and



                                                4
management challenges that EMs and Corporate Managers (CM) will face in 2007 and beyond.
All CMs were asked to submit topics for discussion, especially those related to human capital
management and employee engagement.


    Principle 2: A direct link between the organization’s mission and its strategic plan
    and outcomes.

    Description: To focus on both current and future needs and to provide leaders with
    a broader perspective, succession planning and management initiatives figure
    prominently in the agency’s multiyear human capital plan and provide top leaders
    with an agency-wide perspective when making decisions.


OPM found that one of the many elements of an effective succession plan is to have the
succession plan linked to strategic planning and investment in the future. OPM identified the
following steps:

     •   Identifying the long-term vision and direction.
     •   Analyzing future requirements for products and services.
     •   Using data already collected.
     •   Connecting succession planning to values of the organization.
     •   Connecting succession planning to the needs and interests of senior leaders.

Further, GAO found that leading organizations use succession planning and management as a
strategic planning tool that focuses on current and future needs and develops pools of high-
potential staff in order to meet the organization’s mission over the long term.

FDIC Initiatives

The FDIC’s human capital vision, strategic goals, and strategic objectives are integrated in the
FDIC’s corporate-level planning documents: the Strategic Plan, Diversity Strategic Plan, Annual
Performance Plan, and Corporate Performance Objectives (CPOs).3 These plans collectively
provide an agency-wide vision and framework to guide the FDIC’s succession planning. The
FDIC has developed a Human Capital Blueprint, which illustrates the relationship between FDIC
strategic planning documents and human capital initiatives. In addition, the FDIC’s 2006 and
2007 CPOs have a number of human capital-related objectives and specific initiatives for
succession management strategies. For example, in 2006, the FDIC established a CPO to
enhance and promote a motivated, high-performing, and results-oriented workforce.




3
 Corporate Performance Objectives are a compilation of specific performance targets and measures developed
during the annual planning and budget process and approved by the Chairman.


                                                       5
One of the FDIC’s CPOs for 2007 is to continue to develop effective succession management
strategies with initiatives to:

•     Continue implementation of the Leadership Development Program, including the pilot
      Corporate Executive Development Program (CEDP).
•     Refine and enhance the pilot EM talent review program structure, and assess the need for a
      follow-up EM talent review in 2007. Follow through on developmental and other agreed-
      upon actions to achieve the outcomes identified during the 2006 EM talent review.
•     Conduct a pilot talent review for the CM-II band. Evaluate expansion of this pilot to the
      CM-1 band.
•     Begin implementation of a knowledge management program.4

The 2007 CPOs also include objectives and initiatives related to implementing the Corporate
Employee Program, enhancing strategies for recruiting and retaining a highly skilled and diverse
workforce, and addressing diversity issues. Each of these areas is discussed in greater detail later
in this report.

    Principle 3: Identification of the critical skills and competencies that will be needed to
    achieve current and future programmatic results.

    Description: An analysis of gaps between skills and competencies currently needed and
    those that will be needed is critical to mapping out the current condition of the
    workforce and deciding what needs to be done to ensure that the agency has the right
    mix of skills for the future.

The GAO found that it is essential that agencies determine the skills and competencies that are
critical to successfully achieving their missions and goals. This is especially important as
changes in national security, technology, budget constraints, and other factors change the
environment within which federal agencies operate. Agencies can use various approaches for
making a fact-based determination of the critical human capital skills and competencies needed
for the future such as interviewing agency executives and managers, surveying employees, and
using information on attrition rates, projected retirement rates, fluctuations in workload, and
geographic and demographic trends.

According to NAPA, before an organization can provide the requisite developmental experiences
for future leaders, it must identify the characteristics and competencies needed to meet the
challenges of the next 5 to 10 years.




4
  The FDIC established a knowledge management action learning team to develop standard protocols for capturing
and sharing personal knowledge held by officials in key positions to maintain the FDIC’s ability to perform at a high
level as the employee population changes.


                                                         6
FDIC Initiatives
                                                                           Figure 2: Leadership Competency Model

The FDIC has taken steps to determine the critical skills and
competencies that will be needed to achieve current and
future programmatic results. The FDIC has a Key
Leadership Competency Model that defines leadership
competency as the knowledge, skills, abilities, and behaviors
that an individual must have to lead successfully. The
FDIC’s executive leaders have identified 5 to 10 key
leadership competencies by grade band that are needed for
successful leadership. The College of Leadership
Development’s Web site lists the key competencies for each
grade band and provides: a definition of the competency;      Source: Leadership Development
an action guide for development; online training resources;   Web site
books and articles; and a leadership toolkit, as illustrated
below.

Figure 3: Example of Executive Manager Competency Description

Competency – Vision/Strategic Thinking

Definition – Takes a long-term view and acts as a catalyst for organizational change; examines policy
issues and strategic planning with a long-term perspective. Determines objectives and sets priorities;
anticipates potential threats and opportunities. Identifies and keeps up-to-date on key international
policies and economic, political, and social trends that affect the organization.

Action Guide for Development:
    • Collect Vision statements from 5 or 10 companies that EM admires.
    • Visualize the way EM’s organization will look in 5 years.
    • Act as a catalyst for change beyond EM’s own organization.
    • Hold strategic planning session with EM’s team.
    • Represent the FDIC on an interagency task force.

On-line Training Resources – FDIC Leadership Development Channel and Skillsoft.

Books/Articles
   • Blink: The Power of Thinking Without Thinking.
   • Primal Leadership: Learning to Lead with Emotional Intelligence.

Source: Leadership Development Web site.

CU is working on developing a new Learning Management System (LMS), which would also
serve as a skills database. CU’s Governing Board5 has approved the LMS for development and
the project is being monitored as a Capital Investment Review Committee project.




5
  The Governing Board is comprised of the Deputy to the Chairman and Chief Operating Officer; Deputy to the
Chairman and Chief Financial Officer; division directors; General Counsel; Regional Counsel and the CU Chief
Learning Officer.


                                                         7
Retirement Projections

The Division of Finance (DOF) has prepared annual retirement projections for the past 3 years to
provide the FDIC with fact-based workforce information. DOF found that although a number of
FDIC employees were eligible to retire between the ages of 55 and 57, they were not retiring and
were following the same trend as the rest of the Federal population (tracked by OPM) which
indicates that the average federal employee retires at age 61.5. DOF makes two projections each
year: a conservative projection using the 61.5 age retirement assumption, and a more aggressive,
“incentive” projection that estimates retirement projections if the FDIC offered a buyout or early
retirement incentives.

In addition, 2 years ago, DOF began conducting a coverage analysis to determine how many of
the next lower graded employees would be available to replace higher graded retirement-eligible
employees (e.g., the FDIC has 10 CM-II employees who could fill vacancies of 5 retiring EMs
and 15 CM-I employees who could fill 7 retiring/or promoted CM-II employees).

A DOF executive who oversees the retirement projections noted that the HRC determined that
many of the support division executives (e.g, human resources and information technology)
could be filled, if necessary, by personnel outside of the FDIC. However, the more specialized
positions (e.g., DIR economists and DSC large bank specialists) were positions that presented
greater replacement risk for the Corporation.

The DOF executive sponsored a CU Action Learning Team during 2005 that analyzed and added
additional context to the Corporation’s retirement projections. Specifically, the team was asked
to identify specific areas where the FDIC may have a potential shortage of employees due to
retirements between 2005 and 2010 and to research and propose targeted strategies to address
any shortages.

The team interviewed FDIC division executives and used a criticality matrix6 to identify 100
individual positions of concern and found that:

       •   Most of the 100 positions were not in the driver divisions.
       •   Many of the EM positions identified were due to a concern that eligible CMs did not have
           the necessary technical or leadership skills.
       •   External hiring was possible for over 50 of the identified positions.
       •   The competitive external market was a concern for 26 of the 100 identified positions.

The team recommended that the FDIC:

       •   Develop a corporate-wide, formal succession management program that targets key areas
           of vulnerability.
       •   Promote mid-career outside recruitment and interdivisional development opportunities
           involving meaningful work, lasting at least 1 year, and requiring accountability for real
           business results.

6
    A criticality matrix is a tool that can help identify positions of concern with respect to replacement planning.


                                                              8
    •   Pursue leadership development as a critical component of succession management.
    •   Track and evaluate succession management program success rates and costs.
    •   Provide strong FDIC senior management commitment to the program.


    Principle 4: Development of strategies to address gaps in mission critical and
    other key positions.

    Description: Developing strategies creates a road map for an agency in moving
    from the current to the future workforce needed to achieve program goals.
    Strategies include the programs, policies, and practices that will enable an agency
    to recruit, develop, and retain critical staff.


The CLC has reported that, to ensure a high-quality supply of executive leadership for the future,
organizations must develop succession management systems that take action to address four
fundamental succession risks: vacancy risk, readiness risk, transition risk, and portfolio risk:

•   Protecting Against Vacancy Risk by Safeguarding Critical Business Capabilities:
    Organizations must ensure succession efforts are focused on the most vulnerable portions of
    the business by accurately translating business strategy into talent strategy and effectively
    planning for key talent departures.
•   Protecting Against Readiness Risk by Accelerating Executive Development:
    To ensure effective executive development, succession systems must match executives to
    needed development experiences, balance the short-term risks of stretch assignments with
    their long-term benefits, and enable enterprise-wide mobility of talent.
•   Protecting Against Transition Risk by Balancing Compatibility with Expectations for
    Changes: To ensure executives succeed in new roles as they join organizations and are
    promoted, systems must be in place to identify needed behavioral changes for executives and
    to ensure organizational fit.
•   Protecting Against Portfolio Risk By Maximizing Strategic Talent Leverage:
    In addition to managing the talent supply, organizations must also systematically consider the
    structure of talent demand (e.g., jobs, processes, structure) to ensure that the organization is
    getting maximum return on talent.

FDIC Initiatives

The FDIC has developed strategies to address gaps in mission-critical and other key positions at
the executive level with the Talent Review Program and the CEDP, and at the career
development level through the Corporate Employee Program (CEP), the Honors Attorney
Program, the Professional Learning Account (PLA) Program, and the Mentoring Program.

Talent Review Program: The FDIC piloted a Talent Review Program in 2006. A talent review
is a confidential and constructive forum for evaluating the executive leadership cadre in the areas
of business results, key leadership competencies, demonstration of corporate values, and risk of
loss due to retirement or separation from the Corporation. An FDIC executive indicated that the


                                                 9
purpose of the talent review is to assess the current executive leadership by identifying strengths
and gaps and to develop specific strategies for succession planning. The goals of the talent
review are to:

•   Identify EM succession management needs and strategies put into place.
•   Identify EM developmental needs and develop strategies to close gaps established.
•   Provide feedback, as appropriate, to individual EMs.
•   Develop a corporate understanding of leadership bench strength.

For the talent review completed during 2006, each division/office director gave a report on
his/her executives’ performance, risk of loss (e.g., probability that the executive would leave the
organization), and an assessment of whether the position required specific/technical skills. An
FDIC division director who participated in the Talent Review stated “it was very powerful for
senior management to hear about all of the EMs in the Corporation.” According to a July 2006
presentation to the Chief Operating Officer (COO), the talent review consists of two parts as
shown in Table 2.

Table 2: Overview of Talent Review

Part I—Individual assessment of          Includes assessing individual EM:
existing Executive Managers              • Responsibilities, number of reports, budget;
(15 minutes per EM for a total of        • Key business results and contributions;
3 days)                                  • Key leadership competencies;
                                         • Demonstration of corporate values;
                                         • Potential for loss;
                                         • Technical requirements, if any, of position; and
                                         • Effective use of talent/skills in the Corporation.

Part II- Consolidation of leadership     For the purpose of succession management:
needs and development of strategies to   • Identify bench strength requirements for “at risk” EM positions.
fill gaps                                • Determine if losses can be mitigated.
(One day)                                • Identify strategy for replacement and/or enhancing bench strength and
                                              assign accountability.

                                         For the purpose of leadership development:
                                         • Gather consensus on corporate leadership developmental needs.
                                         • Identify strategies for closing gaps and assign accountability.

Source: July 2006 Presentation to the COO.

The presentation also noted that future steps of the talent review effort will include:

•   Evaluating the talent review process and effectiveness of strategies implemented.
•   Assessing the feasibility of extending the talent review process to CM-IIs and CM-Is.
•   Assessing the need for extending the talent review process and succession management to
    non-supervisory “at risk” positions.

Corporate Executive Development Program: The FDIC plans to pilot a CEDP in 2007.
According to an FDIC executive, this program is designed to identify high-performing, high-


                                                        10
potential employees for development as future executive managers and provide the Corporation a
mechanism to create a pipeline for EM positions. The goals of the program are to:

•   Retain the best and brightest employees.
•   Have a positive impact on culture and eliminate stovepipes.
•   Lead to a legacy of excellence in leadership and leadership development.
•   Contribute to the FDIC’s reputation as a best place to work.
•   Be responsive to the complexity of issues requiring good leaders to keep the FDIC relevant.

CG-15, CM-I, and CM-II employees with 1 year of supervisory or Team Leader experience will
be eligible to apply for the program. Table 3 presents an overview of the CEDP program.

Table 3: Overview of Corporate Executive Development Program
CEDP Program Steps
Written applications will be rated and ranked utilizing the QuickHire system, FDIC’s automated hiring tool. An FDIC
executive panel will conduct quality control reviews of system-generated evaluations.
The best qualified applicants move forward to the OPM assessment center and are scored and ranked by OPM assessors.
OPM provides specific feedback directly to each applicant.
A second executive panel will conduct interviews, review the assessment center evaluations, and acquire supervisor and
EM references. This panel will review all of the results and make recommendations for selection to the Executive Review
Board (ERB).a
The ERB will approve the final selections.
Once selected, the participants will be assigned an Executive Advisor (an FDIC EM outside of the candidate’s chain of
command) who will play a critical role in the development of the Corporation’s CEDP candidates.
Executive Advisors will receive training on their roles and responsibilities. The advisors will:
• draft Leadership Development Plans;
• identify other developmental activities; and
• monitor the effectiveness of the training and development activities.
The best qualified candidates will complete two 360-degree Leadership Assessment Instruments: the OPM 360-degree
assessment and an Emotional Intelligence 360-degree assessment. The assessments will provide feedback from the
participant’s supervisor of record, peers, direct reports, and the participant’s perspective. The results will:
• help participants identify their specific strengths and developmental needs in relation to OPM’s Executive Core
     Qualificationsb and the FDIC’s Key EM Leadership Competenciesc and
• be used to identify the developmental activities to include the participant’s Leadership Development Plan.

Selected candidates will be required to complete a robust 18-month training program, to include in-house training,
external training such as the Federal Executive Institute or Harvard University John F. Kennedy School’s Senior
Executive Fellows Program, and developmental assignments. Because it is critical that the candidate have a corporate
perspective, the assignments will:
• be in a leadership capacity that is both meaningful and challenging, and
• require a 2- to 3-month assignment in a location other than the candidate’s permanent duty station.
Source: CEDP Presentation for the COO.
a
  The ERB is comprised of the three deputies to the FDIC Chairman.
b
  OPM’s Executive Core Qualifications are: leading change; leading people; results driven; business acumen; and
building coalitions.
c
  FDIC’s Key Leadership Competencies are: Vision/strategic thinking, creativity and innovation, open
communication, partnering, and resilience.




                                                             11
At the conclusion of the 18-month program, the ERB, Dean of the College of Leadership
Development, the Executive Advisor, and the CEDP Program Manager7 will assess each
candidate’s readiness to assume the duties of an EM. The graduates of the program who are
deemed ready will be eligible for EM positions that become available on a non-competitive
basis; however, the candidate is not guaranteed an EM position.

The Honors Attorney Program: An HRC member and senior executive within the Legal
Division also identified the FDIC’s Honors Attorney Program as an important initiative in
addressing the Legal Division’s future succession management needs. The goal of the program
is to provide the Honors Attorneys with a better understanding of the FDIC’s role in the nation’s
financial system while providing new attorneys with an opportunity for public service. In order
to qualify for the Honors Attorney Program, an applicant must satisfy the following
requirements:

•   Be (a) in the final year of law school graduating from an American Bar Association-
    accredited law school, or (b) a full-time graduate student in the final year of study which
    started immediately following law school, or (c) a recent law school graduate leaving a
    judicial clerkship, and
•   Be admitted to practice before the highest court of any state, territory or the District of
    Columbia or be taking a bar examination following graduation, and
•   Have, at a minimum, a “B” average or equivalent or be in the top 33 percent of the law
    school class, and
•   Be a United States citizen.

The FDIC assigns its Honors Attorneys to a wide variety of projects throughout the
Corporation’s Legal Division that provide extensive legal experience and a substantial amount of
individual responsibility. In addition, during the first year of the program, all Honors Attorneys
participate in 3-month rotations through various sections of the Legal Division in the FDIC’s
Headquarters office as well as one rotation to one of the Corporation’s field locations. During
the second year, the Honors Attorneys devote their time to more long-term substantive projects.

The Mentoring Program: The FDIC Mentoring Program is designed to support a productive
workplace by enhancing employees’ job skills, empowering employees, and promoting good
corporate citizenship. Participation in the program gives employees the opportunity to broaden
skills, knowledge, and perspectives so that they are better prepared for career opportunities and
challenges. Since 2000, on average, 180 employees have participated as mentors or mentorees
each year.




7
 The Program Manager will be responsible for coordinating the CEDP, designing training and development,
implementing and managing all components of the program, and gathering data on program effectiveness.


                                                      12
 Principle 5: Leadership training programs that include formal and informal
 training for all levels of supervisors, managers, and potential leaders.

 Description: Agencies use developmental assignments, accompanied by more
 formal training components and other support mechanisms, to help ensure that
 individuals are capable of performing when promoted.


The GAO found that, in addition to formal training, leading succession planning and
management initiatives emphasize developmental or “stretch” assignments for high-potential
employees. These developmental assignments place staff in new roles or unfamiliar job
environments in order to strengthen skills and competencies and broaden their experience.

FDIC Initiatives

The FDIC has several internal and external programs that give employees the opportunity to
develop and enhance leadership skills. An FDIC executive stated the total payroll cost for
employees who participate in leadership programs compared to the overall payroll costs is small.
However, the positive return on investment from these leadership development programs in the
form of increased morale and productivity, and stronger leadership is directly linked to creating a
better organization.

Internal Programs

CU’s College of Leadership Development sponsors required leadership and supervisory
programs for team leaders, supervisors, and CMs. Table 4 identifies some of the required
programs.

Table 4: Required Leadership and Supervisory Programs
Program                            Description
Team Leader Core Program           The program provides team leaders with skills, knowledge, tools, and
                                   techniques required when leading a team. The program provides tools
                                   for promoting teamwork and communicating effectively in teams.
Supervisory Core Program           Designed to enhance the core skills and knowledge needed to be an
                                   effective supervisor in a changing FDIC. Participants learn leadership
                                   tools to provide direction, create a high-performing climate, promote
                                   teamwork, manage performance and develop employees, improve
                                   operating effectiveness, and develop effective client/business
                                   relationships.
Senior Executive Leadership Core   Designed for participants to explore critical leadership strategic
Program                            issues, to provide valuable new insights and perspectives, and to
(This program is for CMs)          create a blueprint for achieving outstanding corporate performance.
Source: CU Web site.

The FDIC also has an internal job rotation program that enables employees to undertake
rotational assignments in other operational areas of the Corporation.

In addition, the Corporation’s Diversity Web site offers opportunities for employees to
participate in details with Expression of Interest postings. For example, CU recently announced


                                                      13
an opportunity for employees at the CG-11 and CG-12 to apply for a 180-day detail to serve as a
management analyst on the large bank training program development effort. The Division of
Administration recently announced a detail opportunity for two employees at the CG-12 through
CM-I to serve on a 6-month rotational assignment focusing on corporate recruitment activities.

External Programs

The FDIC has an external job rotation program for executives that enables them to take an
assignment in a public agency or a private sector company. The purpose of the program is to
expose FDIC EMs to the nation’s leading corporations and organizations. It provides these
executives with the opportunity to transfer their skills and talents to new situations, observe and
engage in challenging programs and projects, and increase the FDIC’s knowledge base by
bringing enhanced skills, knowledge, and best practices back to the FDIC. The FDIC also gives
employees at all levels the opportunity to participate in external leadership development
programs. Table 5 identifies the external programs available to employees.

Table 5: External Leadership Development Programs
                                                                                    Employee           Employees
                                                                                 Participants from    Promoted to
      Program                               Description                            2001 to 2005      CM-II/EM thru
                                                                                                         2005
Aspiring Leader        Prepares federal employees for positions as team
Program (CG 5-7)       leaders, supervisors, and managers. This program                 33                None
                       strengthens basic competencies in managerial skills.
New Leader Program     Provides a solid training and development foundation
(CG 7-11)              of leadership skills and team building for federal               32                None
                       employees.
Executive Leadership   Helps individuals who have little or no supervisory
Program (CG 11-13)     experience to acquire or enhance the competencies                37           4 employees
                       needed to become a successful supervisor, manager,                            became EMs.
                       and leader within the federal government.
Executive Potential    Develops senior-level public service employees who                            2 employees
Program                have demonstrated significant leadership potential into          27           became an EM
(CG 13 - CM I)         more effective leaders.                                                       and 1 employee
                                                                                                     became a CM-II.
Leadership for a       Examines and enhances the common culture of senior
Democratic Society     federal executives by addressing the areas of personal           17           2 employees
(CM-I, CM-II, and      leadership, organizational transformation, policy, and                        became CM-IIs.
EM)                    global perspectives. It provides an overarching
                       emphasis on our government’s constitutional
                       framework.
LEGIS Fellows          Provides experienced mid-and senior-level employees
Program (CG 13 and     the opportunity to gain a comprehensive understanding            8            4 employees
above)                 of how the U.S. Congress operates through hands-on                            became EMs.
                       practical experience.
Senior Executive       Focuses on skills associated with OPM’s executive
Fellow Program (CG-    core qualifications: Leading Change, Leading People,             4            2 employees
14, CG 15, CM-I, and   Results Driven, Business Acumen, and Building                                 became EMs.
CM-II)                 Coalitions/Communication.
Source: CU.




                                                          14
In its Diversity Annual Plan and Progress Report for 2005, the FDIC stated that it is “committed
to maintaining a quality workforce with effective leaders. Toward this end, participation in
various external programs that develop leadership potential and enhance professional expertise
and effectiveness is encouraged.”

The Corporate Employee Program: The CEP is an initiative at the FDIC to provide opportunities
for employees at all levels to identify, develop, and apply skills in multiple corporate functions
through various training opportunities and cross-divisional work assignments. The CEP will
create a workforce that possesses a common corporate perspective, with training and experience
in multiple corporate functions, which is capable of responding rapidly to shifting priorities and
changes in workload. The goal of the CEP is to:

    •   Provide employees with skills needed to address significant spikes in business line
        workloads that may temporarily require shifting resources across business lines.
    •   Promote a corporate perspective and a corporate approach to problem solving.
    •   Facilitate communication and the transfer of knowledge across all business lines.
    •   Foster greater career opportunity and job satisfaction.

The CEP includes criteria for hiring and training new employees in the business line divisions8 in
the form of “corporate employees” under term appointments. These employees will pursue
commissioned examiner status and will simultaneously receive training in resolution and
receivership functions. CEP graduates would be eligible to compete for available permanent
positions within the Corporation. As of December 2006, 196 employees were in the CEP.

Professional Learning Account Program: The FDIC’s CHCO indicated that the FDIC’s PLA
program is an important component of the FDIC’s succession planning efforts, related to
developing employees. A PLA is a specified annual amount of money and/or hours that each
employee manages in partnership with his/her supervisor for use towards the employee’s
learning goals. The PLA allows the employee to train within his/her current occupation, as well
as in other areas related to the FDIC’s mission and work, to develop skills and knowledge in
areas of interest to the employee and of value to the FDIC.

All permanent, full-time, or part-time, term and temporary9 employees are eligible to receive
PLA funds ranging from $1,500 to $2,500 and a maximum of 48 training hours per year. In
order to participate in the PLA program, an employee is required to prepare an individual career
development plan (CDP) collaboratively with his/her supervisor to identify goals, developmental
needs, and activities. Upon approval of the CDP by the employee’s supervisor, the employee
can request approval to take training in a variety of areas such as: accounting, human resources,
and information technology. The employee is required to fill out an evaluation form at the
conclusion of each training activity in order to receive credit on training transcripts and any
remaining PLA funds.


8
  The FDIC has identified three major programs or business lines: Insurance, Supervision, and Receivership
Management.
9
  Term and temporary employees with 1 year or less remaining on their appointments will receive PLA funds
monthly on a pro-rated basis.


                                                       15
     Principle 6: Address specific human capital challenges, such as diversity, leadership
     capacity, and retention.

     Description: Leading organizations stay alert to human capital challenges and
     respond accordingly. Government agencies are facing challenges in the demographic
     makeup and diversity of their senior executives.


GAO found that leading organizations recognize that diversity, ways in which people in a
workforce are similar and different from one another, is an organizational strength and that
succession planning is a leading diversity management practice. Given the retirement
projections for the federal government that could create vacancies, agencies can use succession
planning and management as a critical tool in their efforts to enhance diversity in their leadership
positions. In addition, OPM has identified an increase in workforce diversity, including in
mission-critical occupations and leadership roles, as one of its human capital management goals
for implementing the PMA. GAO found that an agency can use succession planning and
management to provide an incentive for high-potential employees to stay with the organization
and thus preserve future leadership capacity. OPM also found that organizations with effective
succession planning efforts use a variety of strategies to help build the continuity of talent
needed for future success including retention strategies.

FDIC’s Initiatives

The FDIC established a 2007 CPO to ensure that the FDIC is recognized by its employees and
other stakeholders as an employer of choice with a corresponding initiative to (1) review and
benchmark the FDIC’s diversity efforts against other employers, and (2) develop and begin
implementation of new initiatives to address cross-generational and other diversity issues to
enhance the Corporation’s capacity to successfully meet its mission responsibilities in the future.

Diversity and Recruitment

The Board of Directors approved the first Diversity Strategic Plan in 1999. In that plan, the
FDIC established several goals related to human capital. For instance, there was a goal to
enhance the Corporate Recruiting Program to ensure that the FDIC’s recruitment process attracts
a diverse and highly qualified pool of candidates. The FDIC also developed a CEP Recruiting
and Application Strategy in 2006 for hiring entry-level Financial Institution Specialists (FIS) into
the CEP. The strategy indicated that the FDIC has elected to use the Federal Career Intern
Program10 hiring authority which provides the Corporation with the flexibility to focus its
recruiting efforts on high-caliber individuals with the qualifications and skills needed to
successfully address the FDIC’s mission responsibilities.



10
  The Federal Career Intern Program is designed to help agencies recruit and attract exceptional individuals into a
variety of occupations. It was created under Executive Order 13162, and is intended for positions at grade levels
GS-5, 7 and 9 or other trainee positions. In general, individuals are appointed to a 2-year internship. Upon
successful completion of the internships, the interns may be eligible for permanent placement within the agency.


                                                         16
The FDIC’s CEP recruiting efforts will seek applicants from multiple sources, with proactive
measures to ensure the inclusion of women, minorities, veterans, and persons with disabilities in
the applicant population. FDIC recruiters will establish contacts with colleges and universities
with recognized programs in business, accounting, finance, economics, and related fields
relevant to the FIS occupation, and with professional associations and other organizations that
provide employment information services to graduates and professionals in the business,
accounting, and finance field.

Employee Retention

The FDIC is revising its Diversity Strategic Plan to include a focus on developing strategies to
address generational differences in order to retain valued employees. Specifically, a member of
the HRC stated that the workforce is made up of several generational age groups that have
different approaches and expectations toward work, motivation, and reward. The HRC member
stated that the biggest challenge for succession planning will be to recruit and retain the new
millennium age group of employees, because these employees expect and respond to a different
set of motivations than prior generational groups.

In this regard, a CU Action Learning Team completed a project on CEP employee retention in
2006. The FDIC hired a psychologist to conduct exit interviews with employees who left the
Corporation during 2004 and 2005.11 The team reviewed employee exit data and found that
beyond buyouts and early retirements (the primary reasons for departures) work-life balance and
work environment were among the top reasons that employees left the FDIC.

The team reported that employee engagement includes rational aspects, such as financial and
career objectives, and emotional aspects such as pride and enjoyment with one’s work. The team
identified best practices for engaging and retaining employees and developed the following
action plan items for completion during 2007 related to:

•      Connecting with employees – Formally document and communicate with employees, ensure
       employee engagement/retention is considered in strategic plans and goals, attain timely
       feedback for each CEP class, and communicate to stakeholders.
•      Developing employees – Conduct corporate-wide “generations at work training” that
       educates all employees on generational characteristics and teamwork.
•      Rewarding employees – Assess current employee benefits to determine if changes can be
       made to enhance work-life balance.
•      Measuring recruiting and retention efforts – Develop and maintain a standardized
       engagement survey to be given to CEP employees at their first and fourth anniversary;
       develop and maintain an exit survey for all employees and use results to address engagement
       issues; develop metrics to quantify the total cost of the CEP from recruitment through
       conversion to permanent status.




11
     The psychologist interviewed 130 employees in 2004 and 219 employees in 2005.


                                                        17
Other Retention Efforts

Consistent with OPM guidelines, the Corporation also has the flexibility to offer retention
bonuses and has used this strategy in rare cases to retain particular employees until a successor
can be trained and developed. The HRC is currently researching what other agencies do to retain
highly valuable employees.

The FDIC also has a required continued service agreement for employees participating in
external development programs to either continue in government service for a specific time after
the training has ended or to repay those funds expended by the FDIC related to the training and
development.

  Principle 7: A process for evaluating the costs and benefits of the succession process,
  and the return on investment it provides for the organization.

  Description: Establishing valid measures to better evaluate how training programs
  affect organizational capacity can give agency decision makers credible information to
  justify training and development programs’ value.

According to NAPA, an organization must develop assessment procedures and tools to gain
insights into how individuals will perform. The tools – including assessment centers,
simulations, competency surveys, and performance appraisals – are used to gauge how
well-prepared candidates are for management positions.

GAO found that agencies should develop appropriate performance measures to link human
capital measures with strategic goals. Performance measures can be used to gauge success and
evaluate the contribution of human capital activities toward achieving programmatic goals.

FDIC Initiatives

An FDIC executive stated that it is too soon to evaluate the FDIC’s succession planning efforts
since the programs are just starting or will be starting next year. The FDIC needs time to
develop a baseline to measure the results of its efforts. However, the FDIC currently has several
mechanisms to monitor the success of FDIC human capital initiatives through the HRC, CPOs,
CU’s Governing Board, supervisor evaluations, and employee surveys.

Human Resources Committee: As discussed earlier, the HRC provides strategic direction and
leadership for workforce planning at the Corporation and is responsible for developing policy
recommendations and monitoring the implementation of human resources initiatives.

Corporate Performance Objectives: As described earlier, the FDIC has specific CPOs related to
human capital, succession planning, recruitment and retention, competencies, and continuous
learning. FDIC divisions and offices report on the status of meeting CPOs quarterly to the COO
and Chief Financial Officer. DOF posts updates on the FDIC’s Corporate Planning and




                                               18
Resource Management Web site throughout the year outlining what has been done to achieve
each goal to date.

Corporate University: CU evaluative initiatives include the following:

•   The College of Leadership Development utilizes 360-degree assessments, which are surveys
    filled out by an individual’s supervisor, direct reports, peers, and the individual to provide
    feedback on the mastery of the competencies critical to their level of leadership and
    identified as necessary for effective leadership performance. A confidential report is
    compiled and provided to participants based on the responses and, in most cases, feedback is
    delivered with individual consultations by either external or internal coaches. CU obtains a
    compilation of the data which indicates the overall level of expertise for each of the
    leadership competencies.
•   CU’s College of Leadership Development plans to monitor the progress of the CEDP
    participants quarterly and will provide feedback and counseling as needed. In addition,
    components of the CEDP will be evaluated using a model based on the work of Kirkpatrick’s
    Four-Level Model. Evaluation at multiple levels allows the FDIC to ensure it is meeting
    critical benchmarks. The Kirkpatrick levels are:

    •   Level 1- Reactions – measures how participants in training programs react to the
        programs.
    •   Level 2- Learning – measures the extent students have advanced in skills, knowledge, or
        attitude.
    •   Level 3- Transfer – measures the transfer that has occurred in a learner’s behavior due to
        the training program.
    •   Level 4- Results – measures the success of the program in terms of increased production,
        improved quality, and return on investment.

•   CU hired an educational psychologist to serve as a program evaluations expert to develop
    metrics for tracking and quantifying training performance from both a qualitative and
    quantitative perspective.
•   Every 2 years, CU tracks employees who participate in the various external leadership
    development programs via an ODEO database to determine if those employees have
    advanced in their careers. A CU official stated that 36 percent of employees who have
    participated in external development programs have been promoted.

Supervisor Evaluations: As part of the FDIC supervisory appraisal process, supervisors are
assessed on whether they provide guidance and feedback to help others enhance their knowledge,
skills and abilities. Specifically, supervisors must involve employees in assessing their own
development needs and ensure that the employees receive the opportunities, tools, and training to
achieve their developmental goals.

Employee Surveys: The FDIC participates in OPM’s Federal Human Capital Survey, which is
designed to gauge employee perceptions on whether they are effectively led and managed,
whether they have opportunities to grow professionally and advance in their careers, and whether
their contributions are truly valued and recognized. The results of this year’s survey will be


                                                19
compared to the previous survey and the Division of Administration will develop strategies to
address any issues that emerge from the survey.


CORPORATION COMMENTS AND OIG EVALUATION

In response to a draft of this report, DOA and CU management provided us clarifications and
editorial comments, which we have incorporated in this final report. The FDIC’s Office of
Enterprise Risk Management advised us on March 23, 2007, that FDIC management considered
the overall report to be well balanced and very thorough, and that there would not be a formal
written response.




                                               20
                                                                             Appendix I



                      OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

To determine the extent to which the FDIC’s succession planning efforts identify and address
future critical staffing and leadership needs.

Scope and Methodology

To accomplish our objective, we performed the following:

•   Identified and reviewed applicable laws and regulations pertaining to succession planning:
       • Federal Workforce Flexibility Act of 2004
       • President’s Management Agenda
•   Researched and reviewed:
       • GAO Report No. 03-914 entitled, Human Capital: Insights for U.S. Agencies from
            Other Countries’ Succession Planning and Management Initiatives.
       • GAO Report No. 04-343SP entitled, Comptroller General’s High-Performing
            Organizations.
       • GAO Report No. 04-127T entitled, Human Capital: Succession Planning and
            Management Is Critical Driver of Organizational Transformation.
       • GAO Report No. 04-39 entitled, Human Capital: Key Principles for Effective
            Strategic Workforce Planning.
       • GAO Report No. 05-207 entitled, GAO High-Risk Series, An Update.
       • GAO Report No. 05-585 entitled, Human Capital: Selected Agencies Have
            Opportunities to Enhance Existing Succession Planning and Management Efforts.
       • GAO Report No. 06-86 entitled, Securities and Exchange Commission: Some
            Progress Made on Strategic Human Capital Management.
       • OPM’s Workforce and Succession Planning, Leadership and Knowledge
            Management, Talent, and Succession Planning Process research.
       • OPM’s 2006 Federal Human Capital Survey.
       • OPM’s Retention Incentive policy.
       • CLC’s research on succession management: Executive Summary – High-Impact
            Succession Management: From Succession Planning to Strategic Executive Talent
            Management.
       • CLC’s research on Attracting & Retaining Critical Talent Segments: Building a
            Competitive Employment Value Proposition.
       • NAPA October 1, 2003, Testimony before the Committee on Government Reform
            Subcommittee on Civil Service and Agency Organization, U.S. House of
            Representatives.
       • Kirkpatrick’s Four Levels of Evaluation.
•   Reviewed the FDIC’s:
       • 2005-2010 Strategic Plan.
       • Diversity Strategic Plan.
       • Diversity Annual Performance Reports for 2001-2005.


                                               21
                                                                            Appendix I



       •    CPO for 2006 and 2007.
       •    2005 Human Capital Blueprint.
       •    2006 Management Assurance Statements.
       •    Management Succession Planning Presentation.
       •    COO memo on workforce planning for the future.
       •    DOF’s FDIC Retirement Analysis.
       •    Training and Development policy.
       •    CMs Board Room presentation on knowledge management.
       •    Performance Management Program – performance plan and evaluation for
            supervisors.
        • Expressions of Interest.
•   Reviewed CU’s College of Leadership Development’s Web site:
        • External leadership development programs.
        • External job rotation program.
        • Competency Model.
        • Research on Taking Leadership Development to a New Level: An Integrated
            Approach for FDIC’s Current and Future Leaders.
•   Reviewed CU Action Learning Team presentations:
        • CEP: Employee Engagement and Retention.
        • CEP Recruiting and Application Strategy.
        • Planning for Retirement and Succession Management at the FDIC.
        • July 27, 2006 Pilot EM Talent Review Presentation for the COO.
        • CEDP report.
•   Obtained and reviewed prior related OIG audits and evaluations:
        • OIG Report No. 04-005 entitled, FDIC’s Strategic Alignment of Human Capital.
        • OIG Report No. 05-012 entitled, Division of Supervision and Consumer Protection’s
            Process for Identifying Current and Future Skill and Competency Requirements.
        • OIG Report No. 05-035 entitled, The FDIC’s Corporate University.
•   Interviewed FDIC executives:
        • Associate Director for Human Resources.
        • Deputy General Counsel and HRC member.
        • Dean of the College of Leadership Development.
        • DOF, Deputy Director, Corporate Planning and Performance Management.
•   Interviewed officials from GAO involved in human capital work government wide.

We conducted our evaluation from October to December 2006 in accordance with the
President’s Council on Integrity and Efficiency’s Quality Standards for Inspections.




                                              22
